     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



November 28, 2011

Report Number: A-09-11-02058

Mr. Scott Olander
Chief Financial Officer
Yakima Valley Memorial Hospital
2811 Tieton Drive
Yakima, WA 98902

Dear Mr. Olander:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Outpatient Billing for Selected Drugs at
Yakima Valley Memorial Hospital. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Iman Zbinden, Senior Auditor, at (619) 557-6131, extension 109, or through email at
Iman.Zbinden@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-11-02058 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Scott Olander


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




      REVIEW OF MEDICARE
     OUTPATIENT BILLING FOR
       SELECTED DRUGS AT
YAKIMA VALLEY MEMORIAL HOSPITAL




                         Daniel R. Levinson
                          Inspector General

                          November 2011
                          A-09-11-02058
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

Yakima Valley Memorial Hospital (Yakima Valley) is a private not-for-profit hospital located in
Yakima, Washington. Based on data analysis, we reviewed $87,781 in Medicare payments to
Yakima Valley for 19 line items for injections of selected drugs that Yakima Valley billed to
Medicare during our audit period (April 1, 2008, through February 28, 2011). These line items
consisted of injections for pemetrexed, immune globulin, alpha 1–proteinase inhibitor, alteplase,
infliximab, bortezomib, adenosine, and epoetin alfa.

OBJECTIVE

Our objective was to determine whether Yakima Valley billed Medicare for injections of
selected drugs in accordance with Federal requirements.

SUMMARY OF FINDINGS

For 6 of the 19 line items reviewed, Yakima Valley did not bill Medicare in accordance with
Federal requirements:

   •   For four line items, Yakima Valley billed the incorrect number of units of service.

   •   For one line item, Yakima Valley used the HCPCS code for administration of one of the
       selected drugs even though a different drug was administered.

   •   For one line item, Yakima Valley billed for a drug that was not administered.

As a result, Yakima Valley received overpayments totaling $9,688. Yakima Valley attributed
the overpayments to its billing system and human error.




                                                i
RECOMMENDATIONS

We recommend that Yakima Valley:

   •   refund to the Medicare fiscal intermediary $9,688 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

YAKIMA VALLEY MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, Yakima Valley provided information on actions that it
had taken to ensure compliance with Medicare billing requirements. Regarding the finding for
the one line item for the drug infliximab, Yakima Valley stated that it appropriately billed the
copayment and deductible amount to Medicare as the secondary payer and that the Medicare
fiscal intermediary should not have paid Yakima Valley for this line item. In addition, Yakima
Valley stated that it billed the correct number of units; however, this claim was processed with
the incorrect number of units because of a system change implemented by the Medicare fiscal
intermediary.

Yakima Valley’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the additional information provided by Yakima Valley, we revised our report to
reflect that Yakima Valley billed for the one line item for infliximab correctly but received an
overpayment from the Medicare fiscal intermediary.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              Yakima Valley Memorial Hospital ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................4

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................5

          INCORRECT BILLING ............................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          YAKIMA VALLEY MEMORIAL HOSPITAL COMMENTS ...............................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................6

APPENDIX

          YAKIMA VALLEY MEMORIAL HOSPITAL COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were pemetrexed, immune globulin, alpha 1–proteinase
inhibitor, alteplase, infliximab, bortezomib, adenosine, and epoetin alfa.

Pemetrexed

Pemetrexed is an injectable drug used to treat malignant mesothelioma and certain types of
non-small cell lung cancer. Medicare requires providers to bill one service unit for each
10-milligram injection of pemetrexed. The HCPCS code for this drug is J9305 and is described
as “Injection, pemetrexed, 10 [milligrams].”

Immune Globulin

Immune globulin is an injectable drug used to treat primary immune deficiency conditions (e.g.,
chronic inflammatory demyelinating polyneuropathy). Medicare requires providers to bill one
service unit for each 500-milligram injection of immune globulin. The HCPCS code for this
drug is J1561 and is described as “Injection, immune globulin, (gamunex), intravenous, non-
lyophilized (e.g. liquid), 500 [milligrams].”

Alpha 1–Proteinase Inhibitor

Alpha 1–proteinase inhibitor is an injectable drug used to treat alpha 1–antitrypsin deficiency in
people who have symptoms of emphysema. Medicare requires providers to bill one service unit
for each 10-milligram injection of alpha 1–proteinase inhibitor. The HCPCS code for this drug
is J0256 and is described as “Injection, alpha 1–proteinase inhibitor – human, 10 [milligrams].”


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Alteplase

Alteplase is an injectable drug used to dissolve blood clots that have formed in the blood vessels
and is used immediately after symptoms of a heart attack or stroke and to treat blood clots in the
lungs. Medicare requires providers to bill one service unit for each 1-milligram injection of
alteplase. The HCPCS code for this drug is J2997 and is described as “Injection, alteplase
recombinant, 1 [milligram].”

Infliximab

Infliximab is an injectable drug used to treat rheumatoid and psoriatic arthritis, ulcerative colitis,
Crohn’s disease, and ankylosing spondylitis. Medicare requires providers to bill one service unit
for each 10-milligram injection of infliximab. The HCPCS code for this drug is J1745 and is
described as “Injection infliximab, 10 [milligrams].”

Bortezomib

Bortezomib is an injectable drug used to treat multiple myeloma and mantle cell lymphoma.
Medicare requires providers to bill one service unit for each 0.1-milligram injection of
bortezomib. The HCPCS code for this drug is J9041 and is described as “Injection, bortezomib,
0.1 [milligrams].”

Adenosine

Adenosine is an injectable drug used to treat supraventricular tachycardia. Medicare requires
providers to bill one service unit for each 30-milligram injection of adenosine. The HCPCS
code for this drug is J0152 and is described as “Injection, adenosine for diagnostic use,
30 [milligrams].”

Epoetin Alfa

Epoetin alfa is an injectable drug used to treat anemia. Medicare requires providers to bill one
service unit for each 1,000 units of epoetin alfa. The HCPCS code for this drug is J0885 and is
described as “Injection, epoetin alfa, (for non-esrd [end-stage renal disease] use), 1000 units.”

Yakima Valley Memorial Hospital

Yakima Valley Memorial Hospital (Yakima Valley) is a private not-for-profit hospital located in
Yakima, Washington. Yakima Valley’s claims are processed and paid by Noridian
Administrative Services, LLC (Noridian), the Medicare Part A fiscal intermediary.




                                                  2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Yakima Valley billed Medicare for injections of
selected drugs in accordance with Federal requirements.

Scope

We reviewed $87,781 in Medicare payments to Yakima Valley for 19 line items that we
judgmentally selected as potentially at risk for billing errors during our audit period
(April 1, 2008, through February 28, 2011). These line items consisted of:

       •   10 line items for pemetrexed totaling $60,433, 2

       •   1 line item for immune globulin totaling $8,475, 3

       •   1 line item for alpha 1–proteinase inhibitor totaling $6,095,

       •   2 line items for alteplase totaling $4,976, 4

       •   1 line item for infliximab totaling $2,902,

       •   1 line item for bortezomib totaling $1,961,

       •   2 line items for adenosine totaling $1,497, and

       •   1 line item for epoetin alfa totaling $1,442.

We identified these payments through data analysis.

We did not review Yakima Valley’s internal controls applicable to the 19 line items because our
objective did not require an understanding of controls over the submission of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file for our audit period, but we did not assess the
completeness of the file.

We conducted our audit from April to September 2011. Our fieldwork including contacting
Yakima Valley, located in Yakima, Washington.

2
    For the 10 line items for pemetrexed, Yakima Valley billed Medicare in accordance with Federal requirements.
3
  For the one line item for immune globulin, Yakima Valley billed Medicare in accordance with Federal
requirements.
4
    For one line item for alteplase, Yakima Valley billed Medicare in accordance with Federal requirements.



                                                           3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify paid Medicare claims for
       pemetrexed, immune globulin, alpha 1–proteinase inhibitor, alteplase, infliximab,
       bortezomib, adenosine, and epoetin alfa during our audit period;

   •   used computer matching, data mining, and analysis techniques to identify line items
       potentially at risk for noncompliance with Medicare billing requirements;

   •   identified 19 line items totaling $87,781 that Medicare paid to Yakima Valley;

   •   contacted Yakima Valley to determine whether the information conveyed in the selected
       line items was correct and, if not, why the information was incorrect;

   •   reviewed documentation that Yakima Valley furnished to verify whether each selected
       line item was billed correctly;

   •   calculated overpayments using corrected payment information processed by Noridian;
       and

   •   discussed the results of our review with Yakima Valley.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For 6 of the 19 line items reviewed, Yakima Valley did not bill Medicare in accordance with
Federal requirements:

   •   For four line items, Yakima Valley billed the incorrect number of units of service.

   •   For one line item, Yakima Valley used the HCPCS code for administration of one of the
       selected drugs even though a different drug was administered.

   •   For one line item, Yakima Valley billed for a drug that was not administered.

As a result, Yakima Valley received overpayments totaling $9,688. Yakima Valley attributed
the overpayments to its billing system and human error.


                                                4
FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For four line items reviewed, Yakima Valley billed Medicare for the incorrect number of units of
service: 5

    •   For the one line item for alpha 1–proteinase inhibitor, Yakima Valley billed the incorrect
        number of units of service. Rather than billing 648 service units, Yakima Valley billed
        1,943 service units. The incorrect billing resulted in an overpayment of $4,182.

    •   For the one line item for bortezomib, Yakima Valley billed the incorrect number of units
        of service. Rather than billing 35 service units, Yakima Valley billed 70 service units.
        The incorrect billing resulted in an overpayment of $980.

For the one line item for epoetin alfa, Yakima Valley billed Medicare using the HCPCS code for
the administration of epoetin alfa rather than using the HCPCS code for the administration of
darbepoetin alfa, the drug actually administered. The incorrect billing resulted in an
overpayment of $971.



5
 For one line item each for alteplase and adenosine, Yakima Valley billed Medicare for the incorrect number of
units of service, resulting in an immaterial overpayment.


                                                        5
For one line item for adenosine, Yakima Valley billed Medicare for 12 units of adenosine that
was not administered, resulting in an overpayment of $653.

In total, Yakima Valley received overpayments of $9,688. 6 Yakima Valley attributed the
overpayments to its billing system and human error.

RECOMMENDATIONS

We recommend that Yakima Valley:

    •   refund to the Medicare fiscal intermediary $9,688 in identified overpayments and

    •   ensure compliance with Medicare billing requirements.

YAKIMA VALLEY MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, Yakima Valley provided information on actions that it
had taken to ensure compliance with Medicare billing requirements. Regarding the finding for
the one line item for infliximab, Yakima Valley stated that it appropriately billed the copayment
and deductible amount to Medicare as the secondary payer and that the Medicare fiscal
intermediary should not have paid Yakima Valley for this line item. In addition, Yakima Valley
stated that it billed the correct number of units; however, this claim was processed with the
incorrect number of units because of a system change implemented by the Medicare fiscal
intermediary.

Yakima Valley’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the additional information provided by Yakima Valley, we revised our report to
reflect that Yakima Valley correctly billed the one line item for infliximab but received an
overpayment from the Medicare fiscal intermediary.




6
  The total overpayment amount of $9,688 includes an overpayment of $2,902 in which the Medicare fiscal
intermediary incorrectly paid Yakima Valley for the one line item for infliximab. Yakima Valley billed Medicare in
accordance with Federal requirements.


                                                        6
APPENDIX
                                                                                                    Page 1 of2


APPENDIX: YAKIMA VALLEY MEMORIAL HOSPITAL COMMENTS 





    November 4 , 2011



    Lori A. Ahlstrand
    Office of Inspector General
    Office of Audit Services, Region IX
    90 - 7th Street, Suite 3-650
    San Francisco, CA 94103

    RE: Report Number A-09- 11-02058

    Dear Ms. Ahlstrand,

    This letter is in response to the draft report entitled Review of Medicare Outpatient Billing
    for Selected Drugs at Yakima Valley Memorial Hospital. Your audit areas for correction
    and your recommendations are for Yakima Valley Memorial Hospital to refund $9,688 to
    the Medicare fiscal intermediary and to ensure compliance with Medicare billing
    requirements .

    • 	 For five line items Yakima Valley Memorial Hospital billed with an incorrect number of
        units of service.
        o 	 Regarding the billing of an incorrect number of units of service for alpha 1­
            proteinase inhibitor, bortezomib, alteplase and adenosine: Yakima Valley
            Memorial Hospital has established a process to eliminate duplicate billing of
            medications . A charge analysis report will be run daily showing the previous
            day's charges. The report will be exported to Excel where it can be sorted in
            various ways for review. The review will be done by patient and charges posted
            for the patient that day. This will show any charges that are listed more than
            once per patient.
        o 	 Regarding the billing of an incorrect number of units of service for infliximab:
            This error was not an issue with Yakima Valley Memorial Hospital billing. Yakima
            Valley Memorial Hospital billed the insurance company and then we billed the
            copay/deductible to Medicare as the secondary payer. On the UB, we showed
            what the insurance paid . We do not know what Medicare would pay as do not
            run claims through an OPPS APC pricer. I believe we are to bill the secondary
            payer regardless of if there is a balance, and if there is nothing to pay, that
            should be shown as a contractual on the remittance . In this case, Medicare
            should have sent zero payment. We billed the correct 50 units, but Noridian had
            a computer problem that was adding a zero to the units, so Noridian processed
            the claim at 500 units. Noridian sent out a memo stating they had identified their
            error and were reprocessing claims at the correct units, but this claim was
            missed.




                                        MEMORIAL*

                                          VAKI MA   VA l l £ V




          281 1 Tieton Dr iv e' Yakima, Washington . 98902 www .yakimamemorialhospital.org
                                                                                              Page 2 of2




• 	 For one line item, Yakima Valley used the HCPCS code for administration of a
    selected drug even though a different drug was administered.
   o 	 This error was due to the billing clerk manually entering the HCPCS with a
       modifier and adding the incorrect HCPCS. Our system is now set up with the
       appropriate modifier to be applied to the charge at time of charge entry so that
       our billing department does not manually enter this information.
• 	 For one line item, Yakima Valley billed for a drug that was not administered .
   o 	 This error was due to a drug not being credited. Our normal charging process
       for medications occurs upon administration to the patient. This occurs when the
       barcode is scanned. This process is in place throughout the hospital, with the
       exception of three areas that do not have the barcode scanning technology.
       These units are ER, OR, and Cath Lab. For these areas, charging is done upon
       dispense from the pharmacy. If the medication is not given and returned to
       pharmacy, the charge should be reversed. Since close to 100% of our dispenses
       are charged via barcode scanning, it is possible that the charge reversal was
       missed due to the extremely low frequency of occurrence. To remedy this
       situation , we are creating a label to place on medications that are sent to these
       units. The label will state "Non-MAK unit - Credit if returned." This will allow the
       pharmacy staff to identify the need to enter the credit.



We appreciate the opportunity to comment on this draft report. If you have further
questions, Please feel free to contact me at (509) 249-5201 or by email at
ScotlOlander@yvmh .org .

Thank you,




Scott Olander
Vice President / CFO

SOfJg
